<html>
<title> - HOLIDAY ON ICE: THE U.S. DEPARTMENT OF HOMELAND SECURITY'S NEW IMMIGRATION DETENTION STANDARDS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
    HOLIDAY ON ICE: THE U.S. DEPARTMENT OF HOMELAND SECURITY'S NEW 
                    IMMIGRATION DETENTION STANDARDS 

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   IMMIGRATION POLICY AND ENFORCEMENT

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 28, 2012

                               __________

                           Serial No. 112-104

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

73-543 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             JARED POLIS, Colorado
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

           Richard Hertling, Staff Director and Chief Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

           Subcommittee on Immigration Policy and Enforcement

                  ELTON GALLEGLY, California, Chairman

                    STEVE KING, Iowa, Vice-Chairman

DANIEL E. LUNGREN, California        ZOE LOFGREN, California
LOUIE GOHMERT, Texas                 SHEILA JACKSON LEE, Texas
TED POE, Texas                       MAXINE WATERS, California
TREY GOWDY, South Carolina           PEDRO R. PIERLUISI, Puerto Rico
DENNIS ROSS, Florida

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel



                            C O N T E N T S

                              ----------                              

                             MARCH 28, 2012

                                                                   Page

                           OPENING STATEMENTS

The Honorable Elton Gallegly, a Representative in Congress from 
  the State of California, and Chairman, Subcommittee on 
  Immigration Policy and Enforcement.............................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration Policy and Enforcement.............................     2
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Chairman, Committee on the Judiciary.......    11
The Honorable Pedro R. Pierluisi, a Representative in Congress 
  from Puerto Rico, and Member, Subcommittee on Immigration 
  Policy and Enforcement.........................................    12
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................    13

                               WITNESSES

Kevin Landy, Assistant Director, Office of Detention Policy and 
  Planning, U.S. Immigration and Customs Enforcement
  Oral Testimony.................................................    18
  Prepared Statement.............................................    20
Jessica M. Vaughan, Policy Director, Center for Immigration 
  Studies
  Oral Testimony.................................................    31
  Prepared Statement.............................................    33
Chris Crane, President, National ICE Council
  Oral Testimony.................................................    39
  Prepared Statement.............................................    41
Michelle Brane, Director, Detention and Asylum Program, Women's 
  Refugee Commission
  Oral Testimony.................................................    48
  Prepared Statement.............................................    51

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration Policy and Enforcement.............     3
Material submitted by the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary
    Article from The New York Times titled ``Detention Is No 
      Holiday''..................................................    14
    Letter to the Honorable Lamar Smith, Chairman, Committee on 
      the Judiciary..............................................    16

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................    74
Prepared Statement of the Honorable Pedro R. Pierluisi, a 
  Representative in Congress from Puerto Rico, and Member, 
  Subcommittee on Immigration Policy and Enforcement.............    79
Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration Policy and Enforcement.............    81
Press Release, February 28, 2012, from the Honorable Lamar Smith, 
  a Representative in Congress from the State of Texas, and 
  Chairman, Committee on the Judiciary...........................   199
Prepared Statement of Cheryl Little, Esq., Executive Director, 
  Americans for Immigrant Justice (formerly Florida Immigrant 
  Advocacy Center)...............................................   200


    HOLIDAY ON ICE: THE U.S. DEPARTMENT OF HOMELAND SECURITY'S NEW 
                    IMMIGRATION DETENTION STANDARDS

                              ----------                              


                       WEDNESDAY, MARCH 28, 2012

              House of Representatives,    
                    Subcommittee on Immigration    
                            Policy and Enforcement,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 1:36 p.m., in 
room 2141, Rayburn Office Building, the Honorable Elton 
Gallegly (Chairman of the Subcommittee) presiding.
    Present: Representatives Gallegly, Smith, Lofgren, Conyers, 
King, Gowdy, Ross, Waters, and Pierluisi.
    Staff present: (Majority) Dimple Shah, Counsel; Marian 
White, Clerk; and (Minority) Tom Jawetz, Counsel.
    Mr. Gallegly. I call the Subcommittee to order. I would ask 
unanimous consent that the Chair would have the right to recess 
the proceedings at any time should there be a vote call on the 
floor.
    Hearing no objection, that will be the order.
    Today our hearing focuses on the detention of illegal and 
criminal immigrants. From the onset, I would like to make it 
clear that no Member is against the humane treatment of 
detainees. However, I am concerned that ICE's new Performance-
Based Detention Standards, because they unreasonably put the 
interests of removable aliens ahead of the interests of the 
Nation.
    Full implementation of the new detention standards is 
likely to be extremely costly. Nevertheless, cost estimates are 
not addressed at any point in the 400-plus page standards. Has 
ICE considered the impact of this new policy on America and the 
American taxpayers?
    To make matters worse, the impetus for the new standards 
have little to do with a need for detention reform. Rather, 
they are part of an extensive public relations effort aimed at 
pro-amnesty advocates.
    Shortly after the detention standards were released, DHS 
announced the opening of a new detention facility in Texas. A 
San Antonio newspaper describes it as being more like a private 
college setting than a detention center.
    It is outrageous that the immigration detention facilities 
have morphed into college campuses, particularly when we are 
dealing with a facility that costs the taxpayer $32 million to 
start with. This is especially true when American families 
struggle to make ends meet.
    However, even these changes do not make advocates happy. 
They have consistently said the new detention facilities are 
improved, but do not go far enough. What will ever enough be? 
Numerous statements issued by the advocates make clear they are 
opposed to the immigration detention in and of itself.
    DHS's new detention standards are part of a trend. The 
trend began with leaked DHS memos that discussed mechanisms the 
agency could utilize to circumvent Congress and provide amnesty 
by administrative action. It continued with DHS issuing memos 
regarding priorities whereby potentially millions of illegal 
immigrants could be exempt from removal. These memos were 
superseded by new prosecutorial discretion policy allowing 
those in violation of the law, who are already in the removal 
process or ordered removed, to remain here undisturbed.
    And now, we have the release of new standards involve 
policies for detainee-friendly detention centers for those 
illegal and criminal immigrants that DHS does intend to detain, 
and, again, all at taxpayer expense.
    I have a recommendation to the Administration. The best way 
to help immigration detainees is not to roll out the welcome 
mat at detention facilities. It is, reduce the amount of time 
they spend in detention by making better use of the tools 
Congress has provided to process illegal immigrants for removal 
more expeditiously. It would be best if ICE spent more time, 
energy, and resources on removing illegal and criminal 
immigrants.
    With that, I will yield to the gentlelady, the Ranking 
Member, Ms. Lofgren.
    Ms. Lofgren. In September of 2007, an armed ICE agent 
transported Ms. M.C. from the Krome Detention Center to the 
Broward Transitional Center. But instead of driving straight to 
Broward, the agent took her to his house, forced her to perform 
oral sex, and then forcibly raped her. According to documents 
related to his criminal conviction, the agent kept his firearm 
in his gun belt attached to his waist at all times during the 
sexual assault.
    I ask unanimous consent to enter the full statement of Ms. 
M.C. into the record.
    Mr. Gallegly. Without objection.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                               __________

    Ms. Lofgren. This was not an isolated incident. Four years 
earlier, another ICE agent was charged criminally with raping a 
female detainee during transportation, and last fall an ICE 
guard was criminally charged after he sexually assaulted at 
least 9 women during transportation.
    Male guards have also sexually assaulted women while 
performing strip searches. In 2007, women at the San Diego 
Correctional Facility filed complaints about a guard who 
sexually assaulted them when strip searching them in a secluded 
room. Another guard in Texas pled guilty to multiple criminal 
charges stemming from similar abuses.
    Some of the detention reforms at issue today were adopted 
to protect female detainees from such horrors. The new 
standards, for example, prevent a lone officer from 
transporting or strip searching a single detainee of the 
opposite sex. If this were in place earlier, Ms. M.C. and 
countless other women could have been spared rape.
    The new reforms could have spared Francisco Castaneda from 
amputation of his penis and then death. He testified in 2007 
before this Subcommittee about the serious medical neglect he 
experienced during his 10 months in detention. Suffering from 
excruciating pain, he spent months begging for a simple biopsy 
that had been repeatedly ordered by medical professionals. ICE 
refused to authorize the medically-ordered biopsy at every 
turn, claiming it was elective. ICE finally released Francisco 
because of his deteriorating health and the threat of 
litigation. He took himself to an emergency room where a simple 
biopsy confirmed that he had penile cancer. Because it had not 
been caught earlier, the cancer metastasized and spread 
throughout his body. After having his penis amputated and 
receiving chemotherapy, Francisco came to Congress with his 
teenage daughter to tell his story so that others would not 
have suffered unnecessarily the way he had. He died just 4 
months later.
    According to the judge who presided over his Federal 
lawsuit, the case represented ``one of the most, if not the 
most, egregious 8th Amendment violations the court has ever 
encountered.'' The United States ultimately settled the lawsuit 
for $2 million.
    This Subcommittee also considered the story of Jason Ng, a 
computer engineer from New York with a U.S. citizen wife and 
two U.S. children. Although he had a pending green card 
petition and no criminal history, Jason spent more than a year 
in detention due to government error in a previous proceeding. 
In detention he complained about crippling back pain, but 
guards said he was just faking. They ignored his request for 
medical care. They even denied his request for a wheelchair. 
One day guards pulled him from his bed, dragged him face down 
through the facility, placed him in restraints, and pressed him 
up against the wall while he screamed and cried for help. These 
photographs taken the following day at the hospital show the 
bruises that he suffered. When doctors finally examined Jason, 
they diagnosed him with advanced liver disease and a fractured 
spine. Despite a broken back, guards kept him restrained in the 
hospital until he died 5 days later.
    Other photographs here are of Boubacar Bah, who died in a 
similar fashion. While at the Elizabeth Detention Center in New 
Jersey, a detainee saw Boubacar collapse and violently hit his 
head on the floor. He was taken to the medical ward in 
shackled, but guards mistook his calls for help and erratic 
behavior as resistance, so they moved him to a disciplinary 
cell. He lay in that cell for 14 hours, despite repeated 
notations that he was unresponsive and foaming at the mouth. 
When they finally took him to the hospital, doctors diagnosed 
him with inter-cranial bleeding. They rushed him into surgery, 
but it was too late. He had slipped into a coma and died 4 
months later.
    Incidents like these led this Subcommittee to hold hearings 
in 2007 and '08. Those hearings uncovered policies that led to 
suffering and death. We learned that ICE was tracking the 
amount of money it was saving by denying critical medical care 
for things like HIV, and head injuries, and tuberculosis. ICE 
could not even account for the detainees who died in its 
custody. Only after an extensive search ordered by new director 
Morton did they learn about 10 previously untracked deaths 
between 2004 and 2010.
    To its credit, this Administration came in, admitted the 
problem, and fundamental change was necessary to prevent 
unnecessary suffering and death. That is the purpose behind the 
new detention standards at issue today. So, I was deeply 
disappointed to learn of the title of this hearing, ``Holiday 
on ICE.'' Certainly Francisco, Jason, or Boubacar would not 
think that their deaths in custody were any kind of a joke. I 
know, and Mr. Gallegly called me to say that he regretted the 
title of this hearing, and I accept that call on his part. 
However, I do not accept the criticism of the Administration 
expressed by the Chairman of the full Committee in his press 
release where he criticizes these detention standards as a 
hospitality guideline.
    I do not think that it is a hospitality guideline to 
prevent rape of detainees, women who have done nothing wrong, 
to prevent death and abuse of detainees in custody. I do not 
think women deserve to be raped. I do not think individuals 
deserve to be tortured through physical or medical abuse or 
gross medical neglect. I do not think women deserve to be 
shackled when they give birth.
    Throughout this Congress, we have seen elements of what I 
think of as sort of a Republican war on immigrants. In today's 
hearing, I am afraid we are starting to see where the war meets 
the Republican war on women.
    And just a note on cost. You know, it costs about $122 a 
day to keep a detainee, a civil detainee, locked up in the 
immigration system. The new, less restrictive system is 
estimated to cost a little over $56 a day. So, these new 
standards will avoid torturing individuals. They will avoid the 
$2 million judgments for hurting or killing people, and it also 
will cost us less than half of the current costs.
    So, Mr. Chairman, I regret the focus of this hearing. I 
think it is wrong. And I look forward to having an opportunity 
to confer on this matter further, and yield back.
    Mr. Gallegly. The gentlelady's time has expired.
    I would just like to respond to one thing in your 
statement, Zoe, and that was something that was laid before me 
yesterday, that we give anecdotal examples, none of which goes 
unrecognized as serious. None of these anecdotal examples seem 
to be more serious to me than one came across my desk yesterday 
when a criminal alien was released recently from detention 
because his native land would not repatriate him, and within 
days of the time he was released, he murdered 5 people in San 
Francisco.
    With that, I would yield----
    Ms. Lofgren. Mr. Chairman, since you have raised that 
issue, I think it is only fair if I be given a few----
    Mr. Gallegly. Okay.
    Ms. Lofgren [continuing]. Moment to respond. That 
individual should have been deported to Vietnam. Vietnam 
refused to take him. As you will recall, we had a hearing on a 
bill authored by a Republican Member of the Committee that was 
so poorly drafted, it would have prevented Benjamin Netanyahu 
from being able to come to the United States to deliver his 
address to the Joint Session of Congress.
    At that time, I indicated a willingness to write a bill 
that would actually work to make sure that an individual like 
this could, in fact, be deported. I know that there has been 
some discussion at the staff level, but we have not reached an 
agreement on a workable bill. And I would urge the Chairman to 
intervene to see if we cannot get some consensus because there 
is not an argument.
    Mr. Gallegly. The gentlelady can rely on that. It was not 
my intent to get into a debate when we have a hearing going on. 
The only point I was trying to make is that there are many 
anecdotal examples that none of us condone, none of us can 
accept, and we are all, I believe, charged with the 
responsibility of trying to find the best way to correct it. 
And the status quo is not working.
    I yield to the gentleman from Texas, the Chairman of the 
full Committee, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    First of all, let me say to the gentlewoman from 
California, Ms. Lofgren, that we actually marked up a bill in 
the full Judiciary Committee, the Secure Communities Act, which 
would have prevented that individual from being released, and 
would have prevented the deaths of those 5 individuals. And I 
am sorry she voted against that bill because if she had have 
voted for it, we might have had it passed by this time.
    Mr. Chairman, on February 28th, 2012, U.S. Immigration and 
Customs Enforcement released about 400 pages of new 
Performance-Based National Detention Standards. But the 
Administration's new detention manual reads more like 
hospitality guidelines for illegal immigrants.
    According to the preface, the detention standards 
supposedly ``were drafted with the input of many ICE personnel 
across the Nation, as well as the perspectives of non-
governmental organizations.''
    But the preface fails to disclose that the union that 
represents ICE detention officers, who are among those most 
affected by these new standards, was not a part of a process 
that will have a large impact on their own safety. Neither were 
advocates for immigration law enforcement or advocates for 
American taxpayers who will have to pay for the new standards.
    Instead, ICE consulted with those who appeared to consist 
primarily of pro-illegal immigrant groups when it drafted the 
new detention standards.
    Under this Administration, detention looks more like 
recess. While funds for American students' physical education 
classes are being cut, the new detention standards expand 
recreation for illegal immigrants. For instance, illegal and 
criminal immigrants in ICE custody will have options such as 
soccer, volleyball, and basketball. It would be nice if all 
American students got those options.
    ICE wasted no time in putting their new standards into 
practice. Immediately following the release of the new 
detention manual, ICE opened up a new, state-of-the-art 
detention facility in Karnes City, Texas. The new detention 
facility was built with specifications set by ICE, which 
involved limited public scrutiny and no congressional 
oversight.
    Among the new amenities, the Karnes City facility contains 
a library with free Internet access, cable TV, an indoor gym 
with basketball courts, soccer fields, and sand, and that is 
for beach volleyball. Instead of guards, unarmed ``resident 
advisors'' patrol the grounds. And the cost of the complex: 
over $30 million taxpayer dollars.
    To make matters worse, the new standards expand the 
complaint process against ICE officers and facilities. It 
offers numerous avenues for complaints, unlike the Bureau of 
Prisons, which has a single streamlined process for complaints. 
Detained illegal immigrants can complain to ICE's Office of 
Professional Responsibility, the Department of Homeland 
Security Office of the Inspector General, or the DHS Office of 
Civil Rights and Civil Liberties.
    With no protections against false accusations of abuse 
filed by detainees, and a process biased against ICE agents, 
the new detention standards could subject the agency and its 
employees to constant and frivolous lawsuits.
    It is no surprise that an agency that considers illegal and 
criminal immigrants it detains as its ``customers,'' ranks--
listen to this, Mr. Chairman--ranks 222nd out of the 240 
government agencies surveyed by the Partnership for Public 
Service for employee satisfaction.
    This hearing is entitled, ``Holiday on ICE,'' because ICE 
has decided to upgrade accommodations for detained illegal and 
criminal immigrants. While we would all like to be upgraded, we 
do not have the luxury of billing American taxpayers or making 
Federal law enforcement agencies our concierge.
    The Obama Administration should put the interests of 
American taxpayers ahead of illegal and criminal immigrants.
    Mr. Chairman, I will yield back.
    Mr. Gallegly. The gentleman from Michigan from Michigan, 
the Ranking Member of the full Committee, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Gallegly. With your 
permission, I would like to yield two of my minutes to the 
former attorney general of Puerto Rico, the Honorable Pedro 
Pierluisi.
    Mr. Gallegly. Mr. Pierluisi, 2 minutes.
    Mr. Pierluisi. Thank you, Mr. Chairman. Thank you, Ranking 
Member Conyers.
    Mr. Chairman, I must respectfully say that I find the 
premise of today's hearing to be misguided and, frankly, 
appalling. Our immigration detention system has serious 
problems. The evidence is as well documented as it is 
heartrending.
    Over 110 people have died in immigration custody since 
2003. Too many others have been subject to rape, abuse, or 
medical neglect. Although there is still a long way to go, DHS 
and ICE deserve credit for making important strides in 
reforming our detention system as reflected in the 2011 
National Detention Standards.
    Rather than welcoming these common sense standards and 
seeking their implementation at ICE facilities across the 
Nation, my colleagues on the other side of the aisle have 
claimed that detainees are now being pampered. That assertion 
does not even pass the laugh test. But nobody should find it 
amusing.
    Mr. Chairman, all Members of this Subcommittee are blessed 
to be Americans, citizens of this great democracy, which has 
done so much to make the world a better, freer, more humane 
place. But this love of country should be tempered by a sense 
of humility, rooted in the knowledge that we could just as 
easily have been born in a darker corner of this world where 
liberty or economic opportunity is in short supply. We should 
have more empathy for men and women who have left behind 
everyone and everything they know in order to reach our shores, 
especially since many detainees have violated no criminal law, 
and those that did have already served their sentences.
    Instead of simply paying lip service to the idea of humane 
treatment, we ought to promote policies that treat people with 
decency and compassion, guided by the understanding that there, 
but for the grace of God, go I.
    I yield back.
    Mr. Conyers. Thank you very much.
    Chairman Gallegly and to our full Committee Chairman, Lamar 
Smith, I have always been proud of the fact that the House 
Judiciary Committee has always evaded the partisan tiffs that 
frequently characterize what goes on in the House of 
Representatives. And I regret that today we are confronted with 
a dilemma that I would like to address and see if we can 
somehow rebuild the good will that has always existed on this 
Committee.
    Now, as I look across this audience, I would be pretty 
naive not to notice that there are many more women in this 
audience than is usually the case. And I think it is because of 
the nature of the hearing that is going on today.
    I want to remind everybody, and with the permission of the 
Chairman, I would like to put into the record the New York 
Times editorial of today by this famous Haitian writer, 
Haitian-American writer--she has citizenship in both 
countries--Ms. Edwidge Danticat, whose article is entitled, 
``Detention is No Holiday.''
    Mr. Gallegly. Mr. Conyers, I assume you are referring to 
what was, I believe, to be an op-ed, not an editorial?
    Mr. Conyers. Oh, I am sorry. Yes, it was an op-ed.
    Mr. Gallegly. Okay. Without objection.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    Mr. Conyers. Thank you, Mr. Chairman.
    So, here is the problem, and this is a sentence that comes 
out of the article, the op-ed that is going into the record by 
Ms. Danticat, whom I must confess I just talked to on the phone 
an hour ago to let her know that I had delivered a letter to 
our Chairman, Lamar Smith, which I also ask unanimous consent 
to include in the record, please.
    Mr. Gallegly. Without objection.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    Mr. Conyers. Thank you very much. I will read just a 
sentence from Ms. Danticat. ``We are being too generous in 
deciding to give them safe water, an hour a day of recreation, 
and of offsite medical care if they are in danger of dying.'' 
And I think that is what it comes down to.
    And I conclude with this. I have the highest respect for 
the director of U.S. Immigration and Customs Enforcement, John 
Morton, its director. I know of the good reputation of the 
assistant director, Kevin Landy, who is our lead off witness 
today. And so, I want us to balance what we say against what 
our Ranking Member, Zoe Lofgren of California, has recited 
about the kind of conditions that people are frequently forced 
to live in. And I hope that we can come to reasonable 
conclusions.
    And I thank the Chairman for his time, and I yield back 
whatever is left.
    Mr. Gallegly. The time of the gentleman has expired. As you 
obviously are aware, the bells have rung for, I believe it is 
two votes, if I am not mistaken. And we will recess until we 
complete the two votes. And I would assume that we ought to be 
able to reconvene within about 25 minutes.
    [Whereupon, at 2 p.m., the Subcommittee recessed, to 
reconvene at 3:08 p.m., the same day.]
    Mr. King [Presiding]. I call this hearing back to order.
    We have a very distinguished panel of witnesses today. Each 
of the witnesses' written statements will be entered into the 
record in its entirety. I ask that each witness summarize his 
or her testimony in five or minutes or less. To help you stay 
within the time, there is a timing light on your table. When 
the light switches from green to yellow, you will have 1 minute 
to conclude your testimony. When the light turns red, it 
signals that the witness' 5 minutes have expired.
    Introduction of the witnesses. Mr. Kevin Landy is assistant 
director for the Office of Detention Policy and Planning of 
U.S. Immigration and Customs Enforcement at the U.S. Department 
of Homeland Security. The Office of Detention Policy and 
Planning leads ICE's efforts to overhaul the current 
immigration detention system. Prior to joining ICE, Mr. Landy 
served for 13 years on Senator Joseph Lieberman's staff on the 
Committee on Homeland Security and on Government Affairs. He 
received his bachelor's degree from Amherst College and his law 
degree from Yale Law School.
    And Ms. Jessica Vaughan. As the policy director at the 
Center for Immigration Studies, she has been with the center 
since 1991, where her area of expertise is administration and 
implementation of immigration policy. Prior to joining the 
center, Ms. Vaughan was a foreign service officer with the U.S. 
State Department, and she holds a master's degree from 
Georgetown, and a bachelor's degree from Washington College in 
Maryland.
    I would also welcome Mr. Chris Crane. He currently serves 
as the president of the National Immigration and Customs 
Enforcement Council 118, American Federation of Government 
Employees. He has worked as an immigration enforcement agent 
for U.S. Immigration and Customs Enforcement--that is ICE--at 
the U.S. Department of Homeland Security since 2003. Prior to 
his service at ICE, Chris served for 11 years in the United 
States Marines.
    And then we have Ms. Michelle Brane. Ms. Brane is the 
director of the Detention and Asylum Program at the Women's 
Refugee Commission, which focuses on the critical protection of 
needs of women and children asylum seekers in the United 
States. She has more than 18 years' experience working on 
immigration and human rights issues. Ms. Brane holds a 
bachelor's degree from the University of Michigan and a law 
degree from Georgetown University.
    I thank all the witnesses for being here and for your 
testimony in advance, and then recognize Mr. Landy for 5 
minutes.

    TESTIMONY OF KEVIN LANDY, ASSISTANT DIRECTOR, OFFICE OF 
  DETENTION POLICY AND PLANNING, U.S. IMMIGRATION AND CUSTOMS 
                          ENFORCEMENT

    Mr. Landy. Vice-Chairman King, Ranking Member Lofgren, on 
behalf of Secretary Napolitano and Director Morton, thank you 
for the opportunity to highlight the ongoing efforts of U.S. 
Immigration and Customs Enforcement to reform our Nation's 
immigration detention system.
    The Nation's immigration detention system expanded rapidly 
in the last 15 years, from an average daily population of less 
than 7,500 detainees in 1995 to more than 33,000 in 2011. This 
growth has presented challenges for the agency, and since 2009, 
Director Morton has made reforming ICE's detention system a top 
priority.
    We wanted to develop facilities more appropriate for the 
agency's detained population, and to improve conditions at 
existing facilities. We wanted to use fewer facilities located 
closer to the location of apprehension, to reduce the number of 
people transferred away from their families, communities, and 
attorneys.
    We wanted to ensure that detainees received adequate 
medical and mental health care, and that detention facilities 
receive necessary Federal oversight. And we wanted to do this 
in a fiscally prudent way.
    And, in fact, the agency's reforms have produced concrete 
changes, while also achieving greater operational efficiency. I 
am pleased to highlight some of these reforms today.
    Last month, ICE promulgated the 2011 performance-based 
national detention standards. The standards cover a wide range 
of topics relevant to the management of detention facilities, 
including all necessary security safeguards. And in most 
respects, they are identical to the standards developed in 2008 
by the prior Administration.
    In this new version, however, we have made important and 
targeted revisions to better address the needs of ICE's unique 
detainee population. For example, the standards improve medical 
and mental health care services, reinforce protections against 
sexual abuse and assault, enhance opportunities to engage in 
religious practices, and in other ways establish new safeguards 
defining the appropriate treatment of detainees.
    It is important to note, however, that our new detention 
standards are only one of several interrelated reform 
initiatives that ICE has undertaken. For instance, ICE has made 
substantial progress in improving medical care available to 
detainees. The ICE Health Service Corps has streamlined the 
system for authorizing care to ensure timely treatment for 
detainees who have serious medical needs. And ICE is also 
developing an electronic health records system.
    ICE has also deployed field medical coordinators at all 
field offices to provide for better coordination with detention 
facilities and to monitor serious medical cases across the 
country.
    In 2009, ICE created an Office of Detention Oversight to 
conduct targeted inspections of detention facilities. ICE has 
also located more than 40 new Federal monitors at large 
detention facilities to inspect and monitor conditions, 
replacing a more expensive contract for those services.
    In July 2010, ICE launched an online detainee locater 
system, a public web-based tool that allows family members and 
attorneys to locate detained aliens in ICE custody. By 
providing information online, the tool frees up time for ICE 
employees to focus on carrying out other responsibilities.
    ICE has made great strides in reducing costly long distance 
transfers of detainees by increasing detention capacity where 
it is most needed. This makes it more likely that detainees 
will remain near their families and attorneys. It also reduces 
disruptions to ongoing immigration proceedings that may 
lengthen an alien's detention. The ICE transfer directive, 
signed by Director Morton in January of this year, ensures that 
decisions regarding the long distance transfer of detainees 
will be made only after careful consideration of the individual 
circumstances of each detainee. The policy will further 
decrease the transfer of detainees who have local attorneys, 
family members, or ongoing removal proceedings.
    As part of our continued effort to develop a better model 
for immigration detention, ICE has opened the Karnes County 
Civil Detention Center outside of San Antonio. The facility 
will house low risk detainees, many of them asylum seekers, in 
a less restrictive environment. The facility's design permits 
greater freedom of movement, including easy access to outside 
recreation, and has other features consistent with our 
detention of foreign principles. Karnes also costs ICE far less 
than the agency's average cost of detention. ICE plans to open 
additional new civil detention facilities in regions where they 
are most needed.
    Thank you again for the opportunity to testify today, and 
for your continued support of ICE and its law enforcement 
mission. I would be pleased to answer any questions at this 
time.
    [The prepared statement of Mr. Landy follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                               __________
    Mr. King. Thank you, Mr. Landy.
    And now recognize Ms. Vaughan for her testimony.

 TESTIMONY OF JESSICA M. VAUGHAN, POLICY DIRECTOR, CENTER FOR 
                      IMMIGRATION STUDIES

    Ms. Vaughan. Thank you for the opportunity to be here 
today.
    Of course no one wants to see people mistreated in 
detention, but this initiative goes too far and is a waste of 
taxpayer dollars that is motivated not by a genuine need for 
reform, but as part of a larger strategy to trivialize 
immigration law enforcement, and minimize the consequences of 
illegal immigration, which imposes enormous fiscal, economic, 
national security, and public safety burdens on American 
communities.
    It is just wrong to ask Americans to foot the bill for the 
Obama Administration programs that seek to help illegal aliens 
game the system. For example, as part of this detention reform 
initiative, DHS has set up hotlines and special advocates for 
illegal aliens to complain about their treatment. As in any 
large detention system, abuses occur and are dealt with, but at 
this point, the people who really need a hotline and a special 
advocate are the ones who have been the victims of the illegal 
acts committed by illegal aliens.
    While critics of immigration law enforcement like to call 
them concentration camps, in reality immigration detention 
centers have always been softer than other detention centers. 
With their turf soccer fields, juice bars, satellite 
television, and polo shirt clad resident advisors, the 
descriptions of the brand new facility in Karnes City, Texas 
sound like more a college campus, not like a temporary holding 
place for people who have violated U.S. laws.
    Now, I am not here to suggest that DHS start housing 
detainees in tents in the desert, but the new Karnes facility 
cost $32 million to build. That is more than twice as expensive 
per bed as another new facility that was built not too long ago 
in Farmville, Virginia. It is reasonable to ask why the new 
facility, built according to the new standards, cost so much 
more, and how this compares to other options, such as housing 
detainees at local correction centers.
    How can DHS justify these facilities and services 
considering that the vast majority of detainees are there only 
for a short period of time? The average length of stay for a 
so-called non-criminal of Mexico or Central America is 10 to 21 
days, just long enough for travel documents to be issued and 
flights to be arranged. And a large share of these ICE 
detainees, Mexicans who are apprehended by the Border Patrol, 
stay only 12 hours.
    ICE turns over groups of 100 of these illegal aliens twice 
a day. The only reason that they are in detention at all is for 
the purpose of padding ICE's year end removal statistics.
    For others, mainly in the interior, the centers are really 
just a brief way station in the Obama Administration's massive 
catch and release program. Under current policies, also known 
as prosecutorial discretion, if they are not a mandatory 
detainee and have not yet been convicted of a crime, they are 
whisked back onto the street, often with a work permit.
    Many of the small number who remain for long periods are 
there because they are refusing the option of quick return and 
choosing to challenge their deportation or seek relief. 
Unfortunately, too often they are given false hope by advocacy 
groups who, under the new standards, get increased access to 
detainees. The humane thing to do is to process them more 
expeditiously so that they can get back home.
    An increasing number who choose to stay in detention in the 
hopes of getting permission to stay are illegal arrivals who 
are taking advantage of the Administration's new lenient 
policies that reward people who express fear of return to their 
home country. They are usually assisted in this claim by NGO 
advocates who put on regular briefings in detention centers as 
called for in the new standards.
    After the application process, they are released with a 
work permit and notice to appear at some future date. These 
applications have increased 500 percent since the new policies 
were adopted.
    Advocates for illegal aliens are quick to point out that a 
large share of the individuals in detention are classified as 
non-criminals. This is not because they are harmless; it is 
usually because local authorities often will drop charges 
against illegal aliens in the expectation that ICE will take 
care of their problem by detaining and removing them. So, this 
population of so-called non-criminals in reality includes any 
number of unsavory and dangerous characters.
    Convicted or not, ICE still has the responsibility to 
remove them. Putting them in a center with standards that are 
too soft may put detention officers, resident advisors, and 
other detainees at risk, and releasing them back into our 
communities puts everyone at risk.
    The majority of aliens who are not detained while in 
proceedings will fail to appear for their hearings or will 
ignore orders to depart. And the number of absconders is now 
more than 700,000, which is a 28 percent increase over 2008. A 
huge number of them abscond from local criminal proceedings, 
too.
    One recent case illustrates what happens when ICE looks for 
ways to release rather than detain people who have been 
arrested. Last September, they released a man in Chicago who 
was charged with 42 counts of child molestation, including 
incest and rape. He was supposedly being monitored 
electronically, but like many thousands before him, he has not 
been seen since. There are thousands of other cases that we can 
point to that are similar to this, but for now since my time 
has expired, I will await your questions.
    [The prepared statement of Ms. Vaughan follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    Mr. King. Thank you, Ms. Vaughan.
    I would recognize Mr. Crane.

             TESTIMONY OF CHRIS CRANE, PRESIDENT, 
                      NATIONAL ICE COUNCIL

    Mr. Crane. Good afternoon, Vice Chairman Gallegly--I am 
sorry, Vice Chairman King, and Members of the Committee.
    Executive Order 13522 in part states, ``Federal employees 
and their union representatives are an essential source of 
front line ideas and information.'' It goes on to say that 
union involvement services improve the productivity and 
effectiveness of the Federal Government, and that management 
should discuss workplace changes, challenges, and problems with 
labor, and endeavor to develop solutions jointly. The order was 
signed by President Obama on December 9th, 2009.
    Ironically, the very next day, December 10th, 2009, I gave 
testimony regarding ICE's proposed detention reforms and 
detention privatization, stating emphatically that as a union 
and as Federal law enforcement officers, we should be involved 
in the pre-decisional development of ICE detention standards, 
emphasizing the President's point that front line employees 
have valuable knowledge and experience that can make our 
government function more effectively.
    Appropriate 2 and a half years after my 2009 testimony, 
ICE's new detention standards were implemented. There was never 
any union involvement. DHS and ICE excluded its own officers.
    Safety concerns are at the top of our list, safety for both 
officers and detainees. At ICE, some detention facilities now 
prohibit officers from carrying handcuffs. Some facilities 
prohibit officers from wearing uniforms, allegedly because 
detainees find uniforms offensive. Detainees wear street 
clothes and are free to wander throughout the facility, and 
even enter officer work spaces.
    Last night, an officer working in a low security facility 
reported that all officers and guards at his facility, inside 
and outside, are unarmed. There are no armed personnel at all 
providing security at the detention facility. He stated that 
there are no fire detectors inside detainee housing units 
leading the facility failing two fire inspections. Yet ICE 
headquarters directed that detainees be housed in the facility 
anyway, a dangerous gamble at best.
    Approximately 1 year ago, ICE leadership divulged the 
assaults against officers and escape attempts were up 
significantly, doubling numbers from the previous year. While 
data supporting these claims is not available to the union, we 
had already observed an apparent increase in the number of 
assaults and escape attempts.
    Efforts by the union to discuss stronger safety precautions 
for ICE officers has been met with strong opposition by ICE. 
This as the Administration efforts to apprehend the worst of 
the worst led to the obvious: detainee populations that are 
increasingly more dangerous and criminal in nature.
    New ICE detention standards provide no criminal background 
screening of visitors, as is standard practice at agencies like 
the U.S. Bureau of Prisons. Without screenings, ICE will permit 
individuals who pose a security threat to enter detention 
facilities, threatening the safety of both detainees and 
officers.
    New ICE detention standards continue to establish pat down 
searches as the standard security search of detainees prior to 
admission or reentry into an ICE detention facility, not strip 
searches, creating an increased risk that weapons, drugs, and 
other contraband will enter ICE facilities.
    New ICE detention standards also establish prohibitions on 
strip searches of detainees following full contact visitation 
with members of the public. New ICE detention permit detainees 
to observe as officers search detainee housing and work areas, 
allowing detainees to monitor and learn officer search 
techniques better enabling detainees to conceal dangerous 
contraband inside the facilities.
    New ICE standards allow for detention officers to perform 
medical and mental health screenings of detainees to include 
screenings for emergent medical conditions, suicide risk, and 
controlled substance dependency. If interpreted correctly, new 
standards prevent detainees with serious medical concerns from 
seeing qualified medical staff for 36 hours or more, recklessly 
assigning important medical duties to officers instead of 
medical professionals.
    In conclusion, as a union and as Federal law enforcement 
officers, we do not oppose public outreach as part of policy 
development, but we do point out that such approaches are 
unbalanced and ineffective when law enforcement officers who 
perform the duties involved are prohibited from providing input 
as well. We believe that new detention standards proposed by 
ICE are at times unsafe, unsafe for detainees and unsafe for 
employees. Good intentions do make for sound security, and do 
not create a safe detention setting.
    If the Administration is concerned with providing a safe 
detention setting for detainees and safe working conditions for 
employees, it will begin to work with the union toward 
achieving those goals.
    This concludes my testimony. Thank you, sir.
    [The prepared statement of Mr. Crane follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                               __________

    Mr. King. Thank you, Mr. Crane.
    And I would now recognize Ms. Brane.

  TESTIMONY OF MICHELLE BRANE, DIRECTOR, DETENTION AND ASYLUM 
              PROGRAM, WOMEN'S REFUGEE COMMISSION

    Ms. Brane. Good afternoon. Thank you for this opportunity 
to testify about this matter, which profoundly affects the 
lives of hundreds of thousands of----
    Ms. Lofgren. Could you pull your microphone a little bit 
closer so we can hear?
    Ms. Brane. The Women's Refugee Commission identified as 
GAPS, researches solutions and advocates for change to improve 
the lives of crisis affected women and children. For nearly 2 
decades, we have visited immigration detention facilities 
throughout the United States and spoken to detention center 
staff, local service providers, and to detainees about 
policies, practices, conditions of detention, and access to 
protection.
    There is no question that conditions of immigration 
detention in the United States have been inadequate, inhumane, 
and unsafe. These conditions have been in violation of the U.S. 
Constitution and our obligations under international law and 
treaties, exposing detainees to harm and leaving the Department 
of Homeland Security and its employees vulnerable to 
litigation.
    The purpose and authority of ICE detention is to hold, 
process, and prepare individuals for removal. It is not to 
punish or rehabilitate. Despite this distinction, ICE uses a 
penal incarceration system. Regardless of whether it is 
inconvenient, the agency has a duty to provide basic services 
and care to those it detains. Anything less is unlawful.
    The detention reforms we are discussing today are a 
response to the public outcry and litigation over conditions of 
confinement. Abuses and inhumane conditions have been well 
documented by NGOs, the media, and government oversight 
agencies. The 2009 report by former DHS special advisor, Dr. 
Dora Schriro, concluded that significant reforms were 
necessary.
    The violations led ICE to launch a much needed reform 
effort, including the updating of the 2008 standards. Despite 
years of development, the 2011 standards are only slightly 
better. They do, however, articulate stronger guarantees to 
appropriate and necessary medical/mental health and women's 
health care, and protections against sexual assault for 
immigration detainees.
    Let us be clear. These standards for confinement are no 
hospitality guide.
    In my numerous visits to detention facilities, I have 
encountered a litany of shortcomings, abuses, and tragic 
consequences. As evidenced by over 120 documented deaths in 
immigration custody since 2003, this lack of medical care is 
not a frivolous matter to be cast aside as insignificant. The 
case of Mr. Boubacar Bah's death, previously articulated by 
Representative Lofgren, is a case in point.
    The current medical standards for women also fall well 
below those in our Federal prison system. Women have been 
denied medically necessary treatment and prenatal care that 
have resulted in serious consequences, including untreated 
cancer and miscarriages. Even basic needs, such as sanitary 
napkins, have been inconsistently available.
    Sexual assaults occur during intake, during detention, and 
even during transport and removal. Frontline recently 
highlighted sexual assaults at the Willacy Facility in Texas. 
In 2009, a guard forced a woman at the Willacy Detention 
Facility into a bathroom and raped her. He threatened to make 
things worse for her if she reported the assault. He was not 
sentenced until 2 years later when he pled guilty in August of 
2011.
    The 2011 standards include basic provisions for treatment 
that are consistent with, not more generous, than what is 
available in the Federal prison system and by law. These 
include appropriate guidelines for the provisions of medical 
care, including access to prenatal care and gynecological 
services, limits on the use of shackles for pregnant women, and 
provisions to prevent and respond to sexual assault, including 
a requirement that victims be provided emergency and medical 
health services.
    To imply that these very basic protections are a holiday or 
an undue burden on the agency is simply wrong. The new 
provisions bring ICE detention standards closer to a minimum 
level of compliance with legal obligations of a civil detention 
system. They will realign priorities so that people like Mr. 
Bah and victims of sexual assault receive basic needed medical 
care and protection from abusive practices. They also provide 
clear guidelines and protection for agency and facility staff.
    Instituting reforms to improve the operation and oversight 
of detention operations should be welcomed. Revising existing 
detention standards is not only necessary for the safety of 
detainees, it is a significant opportunity for ICE to create a 
more efficient and effective system of enforcement.
    This concludes my testimony, and I am happy to take 
questions at this time.
    [The prepared statement of Ms. Brane follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                               __________

    Mr. King. Thank you, Ms. Brane. And I appreciate all your 
testimony, and I recognize myself for 5 minutes.
    And I would turn first to a remark or comment that I heard 
made by the gentleman from Puerto Rico in his opening remarks, 
Mr. Pierluisi, where he said that 110 have died in detention 
ICE custody since 2003, I believe the number was. And so, I 
would ask Mr. Landy, do you have a sense of--I understand that 
there are individual cases here that does assuage anybody's 
grief when it is personal, and it is personal to every family. 
But from a statistical standpoint, do you have a sense of 
whether it is safer or more dangerous to be in ICE detention 
than it is in the broader society of America?
    Mr. Landy. With respect to detention deaths, first of all, 
in 2004, there were 28 deaths in immigration detention. During 
so far in this Fiscal Year, there have been 6 detention deaths. 
And in the previous Fiscal Year, there were 8.
    ICE has been working very hard to improve medical care, to 
address the concerns that have been raised thus far.
    Mr. King. I understand that, Mr. Landy, and I appreciate 
your statements with regard to that. But data wise, my question 
was, is it safer to be in ICE detention as compared to in the 
broader society of America, or is it more dangerous to be in 
ICE detention from a fatality standpoint? And you have about 
33,000 people at any snapshot given day incarcerated. So, have 
you given any sense to that whether when they go inside your 
doors they are safer than they were outside the doors?
    Mr. Landy. Safer----
    Mr. King. Less likely to die.
    Mr. Landy. I myself have not done a statistical analysis.
    Mr. King. Okay. Let me help you out then. I just did a 
little math here when I heard the statement made from Mr. 
Pierluisi, and I thought, what does that mean, 110,000 deaths 
since 2003? So, I just did a little math and roughly 9 years, 
and you shake this out, it comes down to about 1 out of every 
2,500 people. And if you figure the 33,000 annual, about 1 out 
of every 2,500 would die in ICE custody. That is the data that 
Mr. Pierluisi gave us if you are accepting the 33,000 number. 
If you look at the broader society of America, about 2.4 
million people die in America every year out of a 313 million 
population. So, that would be .767 percent, which happens to be 
1 out of every 28 and a half--1 out of every 128.5 people 
statistically die in America.
    So, just think of a town of 128 people. Likely 1 of them 
will pass away in a given year. So, that means that it is 20 
times safer statistically to be in your ICE facility, and I 
would just point that out because not that there are not any 
problems. I would not take that position. But statistically, 
110 deaths over that period of time is not alarming to me.
    Mr. Landy. May I respond to that, Vice-Chairman?
    Mr. King. Please.
    Mr. Landy. In the general public, typically people who pass 
away do so at an advanced age. Our population on average is 
much younger. There are people who, in our general public, 
would be considered healthy, young adult males at that age 
primarily. We do not have very many elderly people in our 
custody.
    Mr. King. Okay. Thank you for that analysis, Mr. Landy, and 
I would just suggest, though, that you take a look then, and it 
is going to be a question I will ask you on the record today, 
and we want to follow up with a response to it. I will ask you 
do a statistical analysis of the universe that you have 
described in the broader society versus that of the ICE 
facilities, and I think that would be instructive for this 
panel to know, because it has been part of the discussion that 
has taken place.
    And then I would turn to--thank you. And I would turn to 
Mr. Crane and ask you if you would have any comments you would 
like to make after you have heard the testimony from Ms. Brane.
    Mr. Crane. A lot of things run things went through my mind 
during the testimony today regarding the deaths. And I think 
the first thing that I would say is that the people that made 
these happen were bad players. And no number of rules or 
regulations that we make will get rid of bad players. They are 
going to do bad things if they are not supervised 100 percent 
of the time. And I think that is one of our biggest issues with 
the performance-based detention standards is that we really 
feel that they have kind of been off the mark starting in 2009. 
We said that the agency needed more oversight. We did not 
necessarily need more regulations per se and more rules.
    You know, providing people with opportunities to have more 
rec time during the day is not going to overcome this type of 
issue. But also, as law enforcement officers, well, at ICE 
specifically, first of all, we know that many of these 
facilities are local jails.
    Mr. King. Is it true that some of the inmates control the 
keys to their own cells?
    Mr. Crane. I am not aware of that.
    Mr. King. Okay, thank you. And I would just quickly turn to 
Ms. Vaughan then and ask you to flush out your comment that ICE 
looks for ways to release rather than to detain.
    Ms. Vaughan. Well, the policies now in place, the 
guidelines for ICE agents, ICE removal officers in particular, 
is to hold only those as a priority who have been convicted of 
a crime. And that policy overlooks the reality of our how our 
criminal justice system plays out in that many of these 
individuals are not going to be convicted unless they are held 
because they stand a chance of fleeing before their proceedings 
can occur, both their criminal proceedings and also their 
immigration proceedings. So, that is why that policy puts the 
rest of us at risk when people who are released back into the 
community have the opportunity to go on to commit other crimes.
    Mr. King. Thank you, Ms. Vaughan.
    The Chair would turn and recognize the gentlelady from 
California, Ranking Member Lofgren.
    Ms. Lofgren. Before asking my questions, I would like to 
ask unanimous consent to include in the record the following 
statements: a statement from Congresswoman Lucille Roybal-
Allard; a statement from a Member of the full Committee, 
Congressman Jared Polis; a statement from Dora Schriro, the 
commissioner of the New York City Department of Corrections and 
the former special advisor to Secretary Napolitano; a statement 
from the American Civil Liberties Union; from the Advocates for 
Human Rights; from the American Immigration Lawyers 
Association; from the National Immigration Forum; from Human 
Rights Watch; from Human Rights First; from the Lutheran 
Immigration and Refugee Service; from the National Latino 
Evangelical Coalition; the National Immigrant Justice Center; 
and Susanna Barciela, the Policy Director for Americans for 
Immigrant Justice.
    Mr. King. Hearing no objections, so ordered.*
---------------------------------------------------------------------------
    *The information referred to is available in the Appendix.
---------------------------------------------------------------------------
    Ms. Lofgren. Thank you, Mr. Chairman.
    You know, there have been a lot of statements made, and we 
only have 5 minutes, so it is not possible to spend all the 
time necessary to correct various things that were said that 
were incorrect. But I do think it is important to take a look 
at the facility that has been described as kind of a country 
club, I guess.
    We have a couple of pictures, because I think pictures are 
worth more than a few words. This is, to me, again, there are 
bunks. It does not look my idea of a plush holiday locale. I 
mean, this is the new center that has been built. And by the 
way, several Members have said that this was a $30 million 
building at taxpayers' expense. It was actually $32 million, 
but it was not built at taxpayers' expense. It was built by Geo 
Group, a private for-profit prison company, and they are paid 
per bed about half of what we pay for other facilities.
    If we could show the next picture. This is the plush 
recreation yard. You can see the very large fence in back, a 
rather grim recreation area. It is not where really I would 
plan to spend my holiday. It is not what I would consider a 
holiday on ice. And the third and final picture, this is the 
showers, as you can see. No curtains. Not exactly what I would 
consider a plush environment.
    You know, I think it is very easy to pick on the most 
vulnerable people, and I think that is some of what is going on 
here today. You know, I heard Ms. Vaughan say that these 
standards, these new detention standards, just go too far. I 
think that was the exact words she said. And I am just sort of 
wondering, you know, Ms. Vaughan, you have studied this. Is it 
too far to not shackle women as they give birth? Do you think 
that is something that really protects the American people? Or 
if you have a mental illness, would it go too far to say, do 
not put that person in segregation because we have seen that 
some of those mentally ill people if they are segregated 
without any care, they have committed suicide while in custody? 
Or how about this: the guidelines prohibit the male guards from 
strip searching the female detainees. Do you think that really 
goes too far to say that the male ICE officers should not strip 
search the women detainees?
    Or how about this: Frontline did a big expose of sexual 
assault in the ICE system. And one of the things they pointed 
out was that--and I am not saying this is all ICE officers, Mr. 
Crane, but certainly there have been multiple instances where 
officers, some employees of the Federal Government, some by 
contract, have taken a detainee by themselves and then 
assaulted them. And now under these guidelines, if you are an 
ICE officer or a contract officer, you cannot take for a ride 
the female detainees, and take her and rape her or abuse her.
    Do you think those things really go too far?
    Ms. Brane. Well, we really think that those are all 
obviously the very minimum of what one would expect in a civil 
detention facility. As I have said, the objective and the 
authority of ICE is not to detain punitively; it is to detain 
pending processing a hearing and removal. And in that context, 
ICE absolutely has a duty to protect and provide minimum care 
to the people in their custody.
    The new standards, I think, provide really minimum basic 
protections and provisions for preventing some of the horror 
stories we heard today. Of course I think that Mr. Crane is 
absolutely right, that oversight in implementation of these 
standards is critical. We have seen that they have not 
necessarily implemented them.
    Ms. Lofgren. Let me ask Mr. Landy, and maybe it is not fair 
to ask you because we asked the Secretary of the Department, 
and she has not really given us a definitive answer. But we had 
a bipartisan effort here in the Congress to do something called 
the Rape Prevention Act. And it was Congress Wolf from Virginia 
and Congressman Scott from Virginia came together and a whole 
series of procedures to prevent rape of people that are in our 
custody. Many of us believe that that bipartisan law should 
also be applied to the immigration detention that is now the 
law in the Bureau of Prisons.
    Would you not think it would be a good idea to be against 
rape in these detention facilities and to adopt some of those 
standards mandatorily?
    Mr. Landy. Director Morton has recently testified there is 
no daylight between PREA and where we want to be as an agency. 
The Prison Rape Elimination Act establishes general principles 
to try to prevent sexual assault entirely, and, if it should 
occur, to respond appropriately and to investigate thoroughly. 
That is exactly what this agency does.
    We promulgated in our 2011 standards far stronger 
protections, although the 2008 standards did that as well. We 
intend to aggressively follow up on any allegation of sexual 
assault, as well as prevent it, to the maximum extent possible.
    Ms. Lofgren. I see my time has expired, Mr. Chairman.
    Mr. King. I thank the gentlelady, and I recognize the 
gentleman from South Carolina, Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Landy, what percentage of aliens are released on bond?
    Mr. Landy. We can get back to you on that.
    Mr. Gowdy. Just give me a round number. I am not going to 
hold you to it. Just generally.
    Mr. Landy. I cannot give you that number, but I will say 
that anyone convicted of a serious crime is required by law to 
be detained. So, anyone who is released on bond----
    Mr. Gowdy. That actually was not my question. My question 
is, in the full universe of aliens, what percentage of them are 
given bond?
    Mr. Landy. We will have to get back to you for an exact 
number.
    Mr. Gowdy. What kind of flight assessment do you do before 
you determine the terms and conditions of the bond?
    Mr. Landy. ICE officers do a very careful assessment of the 
individual's criminal history and other aspects of that 
person's background.
    Mr. Gowdy. Well, if it is that careful, can you tell me the 
percentage who actually abscond or fail to appear?
    Mr. Landy. We will have to get back to you on that precise 
number. I should say that is not----
    Mr. Gowdy. Well, I see the number 40 percent in my 
paperwork. Would you disagree with that number, that 40 percent 
of aliens who are issued bonds abscond or fail to appear?
    Mr. Landy. I do not know that that is correct. And, in 
fact----
    Mr. Gowdy. If it were 40 percent, would you agree that you 
probably ought to rework your flight assessments or retrain the 
people who are actually deciding whether or not grant bond?
    Mr. Landy. I should emphasize that my office does not work 
on these operational issues as to how people who are reviewed 
are released on bond. But I will say that----
    Mr. Gowdy. Well, that is fine. You are the most 
knowledgeable person I can ask today about that.
    Mr. Landy. Which is why I will tell you that ICE officers, 
pursuant to the agency's policy, very carefully consider all 
relevant factors, and only would release someone who is not 
convicted of a serious crime, in which case detention is 
mandatory by law.
    Mr. Gowdy. Well, I understand that, but, I mean, there are 
other ways to do threat assessments other than--I mean, a prior 
conviction for a serious violent offense would be a really good 
indicator that that person was a danger to the community. So, I 
am not going to give them any credit for detaining people who 
have suffered prior serious violent convictions.
    Mr. Landy. Our agency's enforcement priorities extend far 
beyond that one criteria. First of all----
    Mr. Gowdy. Has bond ever been reissued for an alien, 
absconded, failed to appear, arrested for the failure to 
appear, and then a bond then reissued?
    Mr. Landy. The absconding from a final order of removal is 
one of the very high priorities that are included in the 
agency's initiative. So, if somebody had absconded from a final 
order of removal, it would be highly likely that that detention 
would occur in those instances.
    Mr. Gowdy. And the detention would be indefinite, right?
    Mr. Landy. Excuse me?
    Mr. Gowdy. Would the detention be indefinite?
    Mr. Landy. Detention would be until that person's removal 
could be effectuated.
    Mr. Gowdy. Well, what if they come from a country that will 
not have them back?
    Mr. Landy. Under Supreme Court decision, Zadvydas, ICE is 
required by law to release people after----
    Mr. Gowdy. So, they are right back where we started, right?
    Mr. Landy. The agency is required by law to release those 
people pursuant to the Supreme Court decision.
    Mr. Gowdy. I am familiar with the Supreme Court decision. I 
am also familiar that there have been people that have been 
held in State jails and prisons for upwards of 2 years awaiting 
a trial.
    Mr. Landy. Under the Supreme Court decision, people who 
cannot be removed or repatriated must be released within 180 
days. We must abide by that law.
    Mr. Gowdy. Well, let me ask you about repatriation. Would 
you support legislation that would restrict visas or cut 
financial aid to countries that will not accept their citizens 
back?
    Mr. Landy. I will have to get back to you on whether the 
Administration has a position on that.
    Mr. Gowdy. Well, you have a position. I mean, do you not?
    Mr. Landy. I am here in my official capacity to testify on 
detention policy, and my office does not work on that issue.
    Mr. Gowdy. Well, I think it is actually the law. I think 
the law is in place that there are visa restrictions for 
countries that will not accept their citizens back. We just do 
not ever enforce it.
    Mr. Landy. Well, I cannot speak to that. In fact, I am not 
even sure that that is within the agency's mission.
    Mr. Gowdy. Did you consult with line ICE agents before 
these standards were promulgated?
    Mr. Landy. Yes, we did. We provided the draft version of 
the performance-based national detention standards to Council 
118 leadership in March of 2010.
    Mr. Gowdy. Can you give me an example of something they 
asked you to include or asked you to take out that you did?
    Mr. Landy. Well, when we met with them in April of 2010, 
and then again when they were briefed in September of 2010, 
they never provided subsequent input as to what sorts of 
changes they would like to make, notwithstanding our request 
that they let us know our security concerns.
    Mr. Gowdy. Do you have any information on ICE agents who 
have been injured themselves by detainees?
    Mr. Landy. I know that it is exceptionally rare, but I do 
not have specific facts.
    Mr. Gowdy. What do you mean by exceptionally rare?
    Mr. Landy. Well, I personally review on a daily basis 
significant incident reports, and I also speak with ICE 
officers in the development of our initiatives. And I honestly 
do not recall an incident----
    Mr. Gowdy. What about false allegations against ICE agents? 
Have you encountered any of those, or are those also extremely 
rare?
    Mr. Landy. Our office would not necessarily know about 
false allegations against ICE officers since we are a policy 
office that develops detention initiatives in collaboration 
with our operational components.
    Mr. Gowdy. I see the red light is on, Mr. Chairman.
    Mr. King. I thank the gentleman from South Carolina, and 
recognize the gentlelady from California, Ms. Waters.
    Ms. Waters. Thank you very much, Mr. Chairman, and Members. 
I have another Committee that is meeting and several other 
things going on, but I was so intrigued by this title, I 
thought I would come to see what it means. ``Holiday on ICE.'' 
Ms. Vaughan, do you know what that means?
    Ms. Vaughan. It is a reference to a film. I believe it 
means that it is a reference to the public perceptions of what 
some of the conditions may be in some of these facilities.
    Ms. Waters. I am not aware of it. I have not heard this 
kind of discussion. Could you describe to me what is meant by 
that? What conditions are you talking about?
    Ms. Vaughan. Well, I cannot speak to what went into the 
naming of the hearing. I have seen some accounts in news media 
reports, and I have also visited a facility myself. So, I have 
a reasonable sense of what the conditions are.
    Ms. Waters. What did you see?
    Ms. Vaughan. Pardon me?
    Ms. Waters. What did you see when you visited a facility?
    Ms. Vaughan. What I saw was a surprisingly relaxed 
atmosphere. This was a facility that ICE leased space in from a 
county detention center up in the northeast where the detainees 
had pretty free access within the facility and access to each 
other. They had meals that were brought in by a woman who 
cooked them in her home. What I saw, it was a pretty well-
rounded meal of breaded chicken, mixed vegetables, and some 
mashed potatoes. They were on a first name basis with the 
officers who were in charge of security at the facility. Most 
of them actually we were told were requesting to be housed in 
that facility rather than being sent to places that were closer 
to where their families were, I think because it was smaller 
and a little bit different type of setting.
    They accepted their detention because they knew that they 
were in the country illegally, and they were awaiting their 
removal.
    Ms. Waters. Yeah, but they had no choice. They had been 
detained, is that right?
    Ms. Vaughan. Right. Oh, I am sure they would rather not be.
    Ms. Waters. They were not there voluntarily.
    Ms. Vaughan. No, but they also knew that the reason for 
their detention was because they were here in violation of U.S. 
law.
    Ms. Waters. Well, but I want to talk about the ``Holiday on 
Ice'' and the conditions that this title refers to. And so, you 
had people who were relaxed. That means they were not 
screaming, or crying, or running around, or fighting, or 
anything, but they were just ordinarily calm people who 
happened to be detained. Is that correct?
    Ms. Vaughan. Well, most of them were in there for drug 
violations.
    Ms. Waters. Could you describe to me what you think would 
be wrong with being relaxed and a little bit sane? Is something 
wrong with that?
    Ms. Vaughan. No, though this is a number of years before 
the new standards were put into place.
    Ms. Waters. They had access to each other. What do you 
mean, families, that the mother, the father, children could 
talk to each other?
    Ms. Vaughan. Well, they were able to have visitors. They 
seemed to appreciate our visit because the purpose of it was to 
get a sense of what the conditions were for them in detention.
    Ms. Waters. So, did you on your visit, did you determine 
that the conditions were luxurious and extravagant and a 
``Holiday on Ice,'' or just kind of an ordinary thing with some 
woman who cooked some food and brought it in? It was not 
catered by a restaurant. What was extraordinary or extravagant 
about these conditions?
    Ms. Vaughan. I was surprised actually that it was as 
relaxed as it was considering that the local officers may not 
have had good information about who these people were or what 
all was in their background because this was before the era of 
secure communities and biometrics-based background checks. So, 
I remember thinking that they were potentially at risk because 
it was so relaxed.
    Ms. Waters. But they did not demonstrate that they were 
violent, or they were about to attack anybody, or that they 
were fighting. They did not demonstrate any of that.
    Ms. Vaughan. Not during our visit.
    Ms. Waters. You just thought that maybe they should have 
because they had records of some kind, and you were just 
surprised that they were not violent, or fighting, or that kind 
of thing.
    But I guess the bottom line is you did not observe 
extravagance, did you?
    Ms. Vaughan. I would not call it extravagance, no. It was 
more kind of Mayberry-ish like atmosphere.
    Ms. Waters. So, you think that is too nice for a detainee.
    Ms. Vaughan. I would have left that up to the people who 
are in charge of running that facility. It seemed a little bit 
relaxed to me knowing what can happen.
    Ms. Waters. I know. You keep talking about it being 
relaxed, and I am not so sure what you are referring to. And 
what I am trying to find out is what this Holiday on ICE is 
because it implies that there is some kind of extravagance, and 
people want to be there. They are having a great time. They are 
having a vacation. But having just talked with you, I do not 
think that is the case.
    Let me ask Mr. Landy, if I may----
    Mr. King. And as the gentlelady's time has expired, we will 
allow that last question.
    Ms. Waters. Oh, thank you very much.
    I think everyone is interested in these facilities being 
safe and humane. Is that the mission? Is that the goal? You 
have to have these detainees until something happens. They are 
either deported or something happens. And are you trying to do 
anything more than safety and humaneness?
    Mr. Landy. It is essential that the detention facilities 
that we use be safe and humane, especially recognizing the fact 
that our population and the authority that we have is a civil 
detention authority, that we do not have the authority to 
punish people.
    Also the fact that there are non-criminals in our 
detention, that there are asylum seekers in our detention, and 
given the variety and diversity of our population, we do need 
to make sure that our policies and standards are appropriate 
for our population.
    Ms. Waters. Thank you very much. I yield back.
    Mr. King. Thank you. I thank the gentlelady from 
California. I thank the witnesses, Mr. Landy, Ms. Vaughan, Mr. 
Crane, and Ms. Brane, for your testimony.
    Ms. Lofgren. Mr. Chairman----
    Mr. King. And without objection--yes, I would yield.
    Ms. Lofgren. Could I ask unanimous consent to place in the 
record also the pictures that we displayed of the new facility?
    Mr. King. Hearing no objection, so ordered.**
---------------------------------------------------------------------------
    **The information referred to is available in the Appendix.
---------------------------------------------------------------------------
    Mr. King. Again, I thank the witnesses for your testimony 
today. And without objection, all Members will have 5 
legislative days to submit to the Chair additional written 
questions for the witnesses, which we will forward to ask the 
witnesses to respond as promptly as they can so that their 
answers may be made part of the record.
    Without objection, all Members will have 5 legislative days 
to submit any additional materials for inclusion in the record.
    And with that, again, I thank the witnesses. And this 
hearing is adjourned.
    [Whereupon, at 3:57 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Material submitted by the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Ranking Member, Subcommittee 
                 on Immigration Policy and Enforcement

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________

                  Karnes City, Texas Detention Center

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               

Francisco Casteneda, testifying before the House Committee on the 
Judiciary, four months prior to his death.


                               __________

       Bruises on Hiu Lui Ng's body photographed at the hospital 
                          prior to his death.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Boubacar Bah calling for help while being restrained in detention.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Family visits Boubacar Bah in the hospital before his death.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


             Boubacar Bah in the hospital before his death.

                               __________

 Government Chart Documenting Cost Savings Achieved Through Denials of 
                    Requests for Medical Attention.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
